<html>
<title> - NOMINATION OF KENNETH R. WYKLE</title>
<body><pre>[Senate Hearing 105-269]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-269


 
                     NOMINATION OF KENNETH R. WYKLE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                 on the

                  NOMINATION OF KENNETH R. WYKLE TO BE
             ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION

                               __________

                            OCTOBER 28, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works




                        U.S. GOVERNMENT PRINTING OFFICE
 45-160 cc                  WASHINGTON : 1997

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 28, 1997

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    11
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     2
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    10

                               WITNESSES

Rahall, Hon. Nick, U.S. Representative from the State of West 
  Virginia.......................................................     1
Wykle, Kenneth R., nominated by the President to be Administrator 
  of the Federal Highway Administration..........................     4
    Committee questionnaire......................................    19
    Prepared statement...........................................    13
    Responses to additional questions from:
        Senator Boxer............................................    17
        Senator Chafee...........................................    16
        Senator Lautenberg.......................................    14

                                 (iii)




                     NOMINATION OF KENNETH R. WYKLE

                              ----------                              


                       TUESDAY, OCTOBER 28, 1997


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Bond, Warner, and Baucus.
    Senator Chafee. Good morning, everyone. I'd like to welcome 
you all here this morning, and particularly General Wykle. I 
understand your wife, Mary, is here; we met her earlier, and I 
understand your son, John, is also here.
    Before we proceed, Congressman Rahall is here and would 
like to make a brief introductory statement on behalf of 
General Wykle. Senator Warner also would like to make a 
statement; he will be coming along a little later.
    Congressman why don't you proceed? We're glad you're here.

  STATEMENT OF HON. NICK RAHALL, U.S. REPRESENTATIVE FROM THE 
                     STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to present to you this morning a distinguished 
constituent of mine. It is also a delight to be with my former 
colleague from the House, Senator Max Baucus.
    I am before you this morning--and it is a high honor for 
me--to present to the committee Lieutenant General Kenneth R. 
Wykle, President Clinton's nominee to be Administrator of the 
Federal Highway Administration. General Wykle is a native of 
Ronceverte, WV, which is located in the third congressional 
district, which I have the privilege of representing in the 
House of Representatives.
    Mr. Chairman, Senator Baucus, West Virginians have a proud 
tradition of serving their country in times of both war and 
peace. General Wykle's 32-year Army career represents that 
tradition at its best, and if the wisdom of the committee be so 
inclined, he is prepared to carry that tradition of proud 
service into civilian government as FHWA Administrator.
    Mr. Chairman, I first became acquainted with General 
Wykle's transportation expertise in 1994, when he presented 
testimony on the proposed National Highway System before the 
House Subcommittee on Surface Transportation. Those were better 
days because I happened to serve as chairman of the 
subcommittee at that time.
    [Laughter.]
    Mr. Rahall. In any event, Mr. Chairman, in his capacity as 
Deputy Commander in Chief of the U.S. Transportation Command, 
General Wykle presented some very compelling testimony on the 
importance of an efficient highway system to strategic 
mobility, especially with respect to the STRAHNET, which we of 
course have incorporated into the NHS.
    Mr. Chairman, committee members, General Wykle's 
qualifications to serve as FHWA Administrator are apparent, and 
I will not belabor them at this point. However, I do want to 
conclude by noting that over 100 years ago, it was a military 
officer, General Roy Stone, who in 1893 became the Federal 
Government's first special agent and engineer for road inquiry. 
He launched an agency which eventually built the Interstate 
Highway System in the 20th century.
    I think it appropriate that today, President Clinton has 
chosen another military officer, General Wykle, to lead the 
FHWA into the 21st century, where the Nation will face a whole 
new set of transportation-related challenges. I believe General 
Wykle is the right person at the right time to face those 
challenges, and I commend him to you at this time, Mr. 
Chairman.
    Senator Chafee. Well, thank you very much, Congressman, for 
taking the effort to come over here. That's very, very helpful 
to us. I know you have a very busy schedule, so we won't ask 
you to stay if you have appointments elsewhere.
    Mr. Rahall. Thank you.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. The purpose of today's hearing is to 
receive testimony from General Wykle, the President's nominee 
to be Administrator of the Federal Highway Administration.
    I am so glad this nomination is here. Regrettably, there 
has been a gap in this position since Secretary Slater was 
confirmed in early February of this year. The committee 
therefore plans to act expeditiously on this nomination; in 
fact, we have scheduled a business meeting to vote on this 
nomination for tomorrow morning at 9:30 a.m. It is my hope 
that, if all is in order, the Senate will act quickly so that, 
if approved here, General Wykle can be confirmed before the 
Congress adjourns this year.
    I am pleased to report, as the Congressman has pointed out, 
that General Wykle has a distinguished record of service. He 
served in the U.S. Army for 32 years, where he led a number of 
organizations and commands in the United States, Europe, and 
Asia. He also had extensive experience in managing the 
transportation of personnel and cargo by air, rail, highway, 
and ship. I am confident that he will continue to build on this 
excellent record if he is confirmed as Federal Highway 
Administrator.
    If confirmed, General Wykle will represent the Department 
of Transportation and advise the Secretary on all matters 
relating to the efficient movement of passengers and freight on 
the Nation's transportation system. The Federal Highway 
Administration is responsible for implementing a wide range of 
programs, including the Federal-aid Highway Program; highway 
safety programs; motor carrier programs; the Federal Lands 
Highway Program; research and technology, and international 
programs.
    An issue that is on everyone's mind is the reauthorization 
of the Intermodal Surface Transportation Efficiency Act, the 
so-called ``ISTEA.'' General Wykle, when your predecessor, 
Rodney Slater, appeared before this committee 5 years ago, 
Congress had recently passed ISTEA--that is, the first ISTEA of 
1991. During that hearing we focused on the key role that the 
Federal Highway Administration would play in carrying out the 
new transportation law. Here we are, 5 years later, working on 
the reauthorization of that landmark law.
    As you know, the Federal Highway Administration's role 
continues to be a critical one in helping us to do our work. 
The agency provides us with technical assistance in developing 
legislation such as that. Moreover, the Federal Highway 
Administration will write the regulations and guidance to carry 
out the new law, and will work closely with the State 
Departments of Transportation and with the individual States 
and the Congress.
    I look forward to working with you, General, if you are 
confirmed, and with your staff, through the reauthorization 
process and through the implementation process once the bill is 
enacted.
    As we mentioned yesterday when you came by for a visit, it 
is terribly important that we get out the rules to implement 
the new law as quickly as possible. It is also incumbent upon 
the Federal Highway Administrator to protect not only the key 
Federal role in implementing ISTEA, but also the broad 
perspective needed to guide the Nation's transportation system 
into the next century. In other words, it isn't just carrying 
out what we pass; it's looking to the future, what kind of 
transportation system we're going to have in this country.
    The enactment of ISTEA in 1991, as you and I discussed 
yesterday, transformed what was once simply a highway program 
into a program not only for building roads and bridges, but 
also for enhancing our mobility and our safety in the 
environment. In the second ISTEA we must move forward and 
strengthen ISTEA's laudable goals of intermodalism, 
flexibility, and efficiency.
    So we welcome you here, General.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, I want to thank you for quickly 
scheduling this hearing. As you mentioned, we have a vacancy, 
and it is good that you are acting as quickly as you are.
    I do not know Lieutenant General Wykle very well at all; we 
had a brief conversation in my office, but based on that 
conversation and his record, I think he is going to do a great 
job. I noticed that he has an MS in human resource management. 
I think that he could use those skills up here; Congress needs 
somebody like that to manage us a little bit better than we are 
managed, given the deadlock that we are now facing on the floor 
of the Senate.
    [Laughter.]
    Senator Baucus. Nevertheless, in addition to that degree 
and the skills that he has as a result of that degree, he 
obviously has spent most of his career in transportation and 
logistics, moving personnel and cargo, etc. I notice he also 
commanded a group in Vietnam or Laos----
    General Wykle. A truck company.
    Senator Baucus [continuing]. A truck company, that's right. 
So that is helpful, too.
    I guess the main point I want to stress is one that you 
mentioned, Mr. Chairman, and that is that I hope, General 
Wykle, that you are pretty aggressive in managing the agency. 
You have a lot of experience; you have seen a lot, worldwide; 
you have a sense of what other countries do, having observed 
them and having taken note of that, and I encourage you to be 
quite aggressive in doing your job. In other words, you're not 
there just to sit and manage. You are there also to come up 
with new ideas. I think you will find this committee quite 
responsive and receptive to new ideas, because you always want 
to move ahead. You don't want to just keep treading water, but 
move ahead. I welcome you to the job and wish you good luck.
    General Wykle. Thank you.
    Senator Chafee. Now, General, if you have a statement, we 
would be glad to receive it.

 STATEMENT OF LIEUTENANT GENERAL KENNETH R. WYKLE (USA-RET.), 
     NOMINATED TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY 
                         ADMINISTRATION

    General Wykle. Thank you. Good morning, Chairman Chafee and 
Senator Baucus.
    It is a pleasure to appear before you today as you consider 
my nomination to be the Administrator of the Federal Highway 
Administration at the Department of Transportation. I 
especially appreciate the efforts of the committee to expedite 
my nomination during one of this committee's busiest 
legislative periods.
    I am also pleased today that my best friend and partner for 
30-plus years and my son could join us, so I appreciate your 
recognizing them today.
    I am honored to have been recommended by Secretary of 
Transportation Rodney Slater and nominated for this position by 
President Clinton. Both the President and Secretary Slater 
recognize the crucial role of highways in our transportation 
system and their impact on our Nation's economy, national 
security, and quality of life. If confirmed, it would be a 
privilege to work with them and this committee to ensure that 
we build a strong national intermodal transportation system for 
the 21st century.
    As the former Deputy Commander in Chief of the U.S. 
Transportation Command, or TRANSCOM, I know first-hand how very 
much we rely on our Nation's highways and the entire 
transportation system to move people and goods in this country. 
Highways are the backbone of our current intermodal 
transportation system. At TRANSCOM we were responsible for 
providing and arranging transport services worldwide during 
peace and war. In cooperation with our commercial industry 
partners, we moved thousands of personnel and millions of tons 
of cargo in support of humanitarian operations and during times 
of national crises. We experienced first-hand the need, both in 
peace and in time of international turmoil, for safe, reliable, 
efficient transportation.
    These events demonstrated the requirements for a connected, 
seamless national and international intermodal transportation 
system. I would bring this recent experience, plus almost 16 
years' experience living in Europe and Asia and working with or 
using their commercial transportation systems, to the position 
of Federal Highway Administrator.
    I would ask for a moment that you think of our Nation's 
transportation system like the human circulatory system: an 
efficiently functioning intermodal transportation system is 
essential to our Nation's economic welfare and survival, just 
as a fully functional circulatory system is essential to our 
bodies. The Nation's intermodal transportation system must 
enable the people and goods to move efficiently throughout the 
country and the world, or the economy and our quality of life 
will lose vitality and productivity, just as the human body 
will fail when its circulatory system becomes clogged. As we 
properly maintain and strengthen the body, we must do the same 
for this Nation's transportation infrastructure.
    I personally find the search for solutions to our Nation's 
challenges rewarding. If confirmed, I look forward to forming a 
strong alliance with this committee, dedicated industry, 
Government, and academic partners, and representatives from 
environmental and other affected transportation interests to 
create a truly national intermodal transportation system that 
is interoperable with global transportation systems.
    A few weeks ago, Secretary Slater transmitted to you the 
Department of Transportation's strategic plan for 1997 to 2002. 
The five strategic goals laid out in the plan provide the right 
foundation for improving the performance of the Nation's 
transportation system, and if confirmed, I would be guided by 
these goals as the Federal Highway Administrator. I agree with 
the Secretary that the Department's strategic plan provides the 
direction for achieving transportation excellence in the 21st 
century. The goals are basic, but reflect and balance the 
complexities of the national transportation system. They are 
safety, mobility, productivity, human and natural environment, 
and national security.
    I believe these goals are fully reflected in the Intermodal 
Surface Transportation Efficiency Act, ISTEA, reauthorization 
legislation advanced by this committee and the Administration. 
Indeed, the bill reported out by this committee, ISTEA II, and 
the Administration's proposal have much in common. I am aware 
of the difficult issues yet to be resolved, and I pledge to 
work with you in any way possible to obtain a multiyear 
reauthorization bill based on the principles of ISTEA.
    The National Highway System, which was enacted into 
legislation 2 years ago, will serve as the keystone of a 
transportation system that will serve this Nation well into the 
21st century. The total system will continue to foster 
productivity and mobility, and it must be enhanced as we 
leverage technology, information systems, and our great human 
resources. We cannot continue to build highways as we have the 
last 40 years. We must turn our focus to an efficient national 
intermodal system that is interoperable with the global 
transportation systems, using technology and information to 
significantly increase the capacity and productivity of our 
current infrastructure.
    In closing, I am honored to appear before you today, and if 
confirmed, I pledge to work with you and all of our partners to 
achieve transportation excellence in the 21st century. I thank 
this committee for the courtesy and considerations extended to 
me. I look forward to your questions.
    Thank you very much, sir.
    Senator Chafee. Thank you very much, General.
    There are two mandatory questions which I will ask you now.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    General Wykle. I am, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    General Wykle. I do not, sir.
    Senator Chafee. Now, General, I was very interested in the 
five points which you set forth, and I would just like to 
follow up on that a little bit. I am going to discuss the 
environmental part of the ISTEA legislation.
    It seems to me--and certainly, this was the philosophy of 
ISTEA I--that clearly, obviously, transportation benefits 
society through moving goods and people, but at the same time 
we recognized in that legislation that the construction of 
these roads and the heavy traffic on them has a negative impact 
on the surrounding environment.
    ISTEA I and II, has provided States and localities with 
directed funds, specific funds, to offset air pollution and 
some of the other costs of transportation that are imposed upon 
the environment. These are, of course, the CMAQ programs and 
the enhancement programs. Some Members of Congress would like 
to allow States to transfer funds from the CMAQ or from the 
transportation enhancements and other environmental programs, 
take them out of that and put them into highway construction.
    What is your opinion on allowing funds from ISTEA's 
environmental programs to be used for highway construction?
    General Wykle. Sir, as you know, there are many elements or 
pieces to the current ISTEA and the proposed ISTEA II, and 
within each of those programs, certain moneys are designated 
for particular uses by the States. It is my opinion that the 
States have a lot of flexibility in terms of using those 
individual programs to meet the needs for which they are 
specified, and it is not necessary to transfer money out of the 
environmental piece to do other types of work. I believe there 
is adequate funding in the National Highway System, the bridges 
program, the surface transportation program, to do those things 
that need to be done in those areas, and that money that is 
designated for the environmental area, congestion management, 
and air quality should be retained in that area for those 
specific types of projects.
    There are certain things, I think, that deserve special 
attention and need to be focused upon from the national level, 
so those environmental funds can be used for that purpose and 
are very appropriate in that particular category.
    Senator Chafee. There is a good deal of concern in Congress 
over truck sizes and weights. Some Members believe we should 
relax the current restrictions on weight and size limits on 
Interstates, and some Members want to go to the longer 
combination vehicles and lift the freeze that we have on that. 
Others believe that current restrictions have to be tougher, 
and that all triple trailers and overweight vehicles should be 
banned from the Interstates.
    Do you have any thoughts on the issue of truck sizes and 
weights? That's something that's going to come before you, 
clearly.
    General Wykle. Well, as you have indicated, sir, the 
current ISTEA has a freeze on that, and the proposed ISTEA II 
continues that freeze.
    The agency currently has a study under way to look at this 
very issue, to try to help us in making a recommendation on the 
weight-size issue. The Department is a little bit behind on 
that study in terms of the time in which it was to be 
delivered, but it is on track now, so my thoughts are that we 
need to wait until the study is completed, see what comes out 
of that before we come forth with a recommendation. But at this 
time, I think it's a little too early to say.
    Senator Chafee. I have some further questions, but I'll 
hold up on these and let Senator Baucus ask some questions.
    I would say this, as we discussed yesterday, these other 
countries are doing some interesting things. All the 
innovativeness isn't in the United States. I hope you get a 
chance, take a chance, to take a look around the world. You 
have already; as you introduced your wife, I was thinking 
mentally, I wonder how many times they've moved?
    [Laughter.]
    General Wykle. I think it's in the range of 26 or 27, sir.
    Senator Chafee. I suspect so. So in the course of that--
you've been to Europe, I'm sure, served in Germany, obviously 
served in the Far East, so you've seen what's taking place. I 
just hope you continue to observe what else is taking place 
around the world. Don't be reluctant to take a trip and see 
what's out there; now you'll be looking with different eyes 
than you were before, because we can use a lot of 
innovativeness in our country.
    Senator Baucus.
    Senator Baucus. Thank you.
    General you've thought a little bit about this job, I'm 
sure. What do you hope to accomplish when you leave? What are 
your goals, what do you hope to accomplish, and how do you want 
to be remembered, and for what would you like to be remembered?
    General Wykle. I would like to be remembered in a couple of 
areas, sir, in terms of having had an influence on the highway 
program within this country and contributing overall to the 
Nation's transportation system.
    Within those five goals that Secretary Slater laid out, I 
really want to work hard on the intermodal piece of that. I 
think it is essential that we have the capability to transfer 
goods and people between the various modes of transportation in 
this country efficiently and effectively, to increase the 
productivity and economic well-being of our country.
    I want to be remembered for contributing to using 
technology, leveraging commercial technology that is available 
today to improve the capacity and capability of our current 
highway system, as well as our other transportation systems. 
But I think there is a tremendous opportunity for us now to 
take advantage of technology to get greater capacity and 
productivity out of the current transportation infrastructure 
that we have.
    One of those areas is intelligent transportation systems. 
There are just a lot of opportunities out there. As an example, 
on toll roads where they do exist within the various States, 
using radio frequency-type tags to speed the movement of 
vehicles and cargo through the toll plazas. They have Fast 
Toll, E-Z Pass, other types of terms applied to it, but that is 
one area.
    There is weight and motion where trucks do not have to pull 
into weigh stations all the time to be weighed--that requires 
them to stop and slow down and lose productive time. We can 
come up with ways that trucks can travel the Interstate and not 
have to stop to do these types of things.
    Intelligent cruise control, crash avoidance systems--there 
are all kinds of technology that have application within the 
highway area that I would like to leverage and use to really 
maximize the capacity that we currently have.
    I think a key area also is connectors. If we're going to 
have a truly intermodal system, and the Interstate is basically 
completed, we now must ensure that we have the connectivity 
from the highways to the rail yards to the ocean terminals to 
the airports, and means for passengers to move rapidly from one 
mode of transportation to another. So we need to concentrate on 
getting those connectors done.
    So when you sum all of that up, working toward increasing 
the capacity and productivity of our system through the use of 
technology and information systems, combined with making the 
system more intermodal and maintaining the infrastructure we 
have to a high quality.
    Senator Baucus. I appreciate that. It is obvious that 
you've thought a lot about it, and that's good. I agree that 
there should be much greater emphasis on developing new 
technologies to create more efficiencies along the lines that 
you have suggested.
    Do you have a sense whether, generally, the United States 
is meeting its infrastructure needs? We sometimes hear that 
some countries, say like Japan, spend four times what we do as 
a percent of our GDP on infrastructure, and I think Germany or 
Europe is two times. But it's a concern that a lot of people 
have. I'm just curious as to what your thoughts are about all 
that.
    General Wykle. Well, I will give you two thoughts in 
answering that.
    Personally, as an individual citizen, as I drive around 
this country and travel extensively, it is my intuitive feeling 
that our Interstate highways are declining in industrial areas 
and in those areas around ports and rail yards, and where we 
have the high concentration of commercial-type activities. As 
we get out into more rural areas, there is not quite as much 
deterioration. That's the intuitive perception.
    During the briefings that I received in preparation for 
this hearing I did look at that specific area because I was 
interested in comparing the data, if you will, to my intuitive 
feeling. The data shows that over the last 2 to 3 years, 
primarily as a result of ISTEA, the deterioration in rural 
roads has basically been stopped, been stabilized. The amount 
of roads classified as ``poor'' has decreased from about 9 
percent or 9.5 percent down to the 7 percent to 7.5 percent 
range. So it's a percentage or so drop in the category of poor 
roads throughout the rural areas of the United States.
    But when you look at the industrial areas, the urban areas, 
it's basically stabilized. There has not been any decrease. It 
was 9.5 percent; it's down to about 9.3 percent. So I guess 
from the data that's out there, the best that we have done is 
basically stabilized the deterioration. That's why I think it's 
very important that we work hard to maintain, to repair, to 
rehabilitate what we have so that we can get more productivity 
and efficiency out of it.
    Senator Baucus. Thank you very much.
    I am curious if you have any thoughts about roads that 
access parks, National Parks and National Forests and so forth. 
I'm from the west; we have a lot of Federal land in the west, 
National Parks and National Forests, etc. The population of the 
State of Montana is close to 900,000; we had over 3 million 
tourists visiting the parks last year in busy Montana, and most 
of them go to visit the parks.
    Do you think there should be some attention paid to those 
States that provide services for access to public lands--that 
is, in terms of writing a highway formula?
    General Wykle. Well, sir, as you and I talked in your 
office, this formula issue is a major challenge. It's a matter 
of priorities and the establishment of those priorities. I 
would certainly commit to you that as the Federal Highway 
Administrator, if confirmed, I would work with you and other 
Members of this committee to try to develop a fair and balanced 
formula.
    Senator Baucus. You will do very well.
    [Laughter.]
    Senator Baucus. Thank you very much.
    Senator Chafee. I think you will do well to avoid that 
thicket.
    [Laughter.]
    Senator Baucus. Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    General one of the concerns that we all have is that it is 
incredible that in the United States alone, there are 41,000 
highway deaths a year, and some 3.5 million collisions. All too 
often we think about the deaths and brush off the collisions, 
but we've all known people just suffering ghastly injuries from 
collisions that don't move into the death toll, but nonetheless 
result in such severe injuries that the effects of those 
injuries remain with those individuals for the rest of their 
lives.
    It's a tough area. I remember when I was in the State House 
in our State, we used to talk about the ``three Es,'' 
engineering, enforcement, and education, driver training and so 
forth and so on. Engineering is the design of the roads, 
enforcement being the police, particularly the State Police. Of 
course, all of this in recent years has tied into our efforts 
to increase seatbelt usage, and of course, we're into the 
airbag business now to some degree.
    Do you have any thoughts on what might be done, what we 
might do or what you think we ought to do, to try to pull down 
these horrible figures?
    General Wykle. Well, sir, I certainly agree with you that 
they are way too high. As you noticed in my opening comments, 
one of Secretary Slater's primary goals is safety. That is the 
No. 1 priority within FHWA and within the Department. The FHWA 
has responsibility for the roads and the safety of our roads 
and bridges, so I certainly want to emphasize that piece of it 
by strongly supporting the Interstate maintenance program, our 
bridge maintenance program, those types of things. But there is 
not one silver bullet, in my estimation, and I think the 
summary you gave in terms of the ``three Es'' is very 
applicable. There are several things that have to be taken 
together. We need to get the synergy from all of those.
    In addition to the engineering and the repair and 
maintenance of our roads, we need to look at avoiding crashes. 
This country has done a lot in terms of protecting the occupant 
in terms of seatbelts and airbags and rollover protection. We 
need to look at how to avoid the crashes. So I think that 
intelligent cruise control, some type of forward infrared-
looking type radar that may eventually go on vehicles to 
preclude vehicles from getting too close, a way for truckers to 
see what's in the blind spots on the highways--those types of 
things, using technology, can help us.
    Certainly, education. Human behavior is a major factor, so 
we have to have education-type programs that go out and get the 
word around about using seatbelts, airbags, the dangers of 
drunk driving, driving under the influence, those types of 
things. So it's a combination within the agency. I will be 
primarily concentrating on the maintenance of the roads and the 
safety of the roads, and then working with the other agencies 
within the Department across the board in the other areas.
    Senator Chafee. I have just been informed--I wasn't sure of 
it--that the Administration has come out for the .08 alcohol 
blood content. Is that correct?
    General Wykle. Yes, that's correct, sir.
    Senator Chafee. All right.
    Senator Warner, did you want to introduce the witness?

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Mr. Chairman, I was on the floor of the 
Senate this morning, opening the Senate at 9 o'clock, and I 
apologize to the General. I also thereafter made a few remarks, 
hopefully on behalf of this committee, on the need to get our 
bill up, explaining how, in the wake of the tumbling markets 
worldwide, this piece of legislation provides stability in the 
job market which could well be needed at this point of time in 
our history. If I may say, I gave something of an impassioned 
speech in trying to maybe persuade a mind or two as we approach 
the hour of 10 o'clock and have another vote on cloture.
    Senator Chafee. So if it passes, you get credit----
    Senator Warner. No, no, Mr. Chairman----
    [Laughter.]
    Senator Warner [continuing]. I have found out around this 
institution, learning under you these many years, that if you 
want to get anything done, don't take credit for it.
    But I've had the opportunity to visit with the General, and 
I would like to place into the record my brief remarks, which I 
was told would be delivered at 9:30, but I judge that the chair 
and the ranking member started out a little earlier.
    So we are here. I have a question at the appropriate time, 
but I will defer my question to others who were here earlier.
    Senator Chafee. All right.
    Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. I join in 
welcoming the General.
    Actually, I came here to extend a particular invitation to 
come visit Missouri, because all of the things that have been 
discussed by the chair and the chairman of the subcommittee are 
real problems that we face in Missouri. We are a very highway-
dependent State, and the chairman has been a great fighter for 
highway safety and I support his efforts and I support the 
bill. I hope that we can get it up and vote on it today, but 
we, too, have had more than our share of highway tragedies in 
our State. It's not the fancy things; it's not the extra gee-
gaws that we need to make our highways safer. We have heavily 
traveled Interstates; we have heavily traveled National Highway 
System roads that are now two-lane, two-way highways carrying 
12,000 or 15,000 cars a day, and too often--usually someone 
from out-of-State--comes in and pulls out to pass, thinking 
it's a four-lane. We have lost good friends, we have lost 
acquaintances, we have lost community leaders because our 
highways are not adequate for the heavy traffic that they are 
carrying.
    We are also a State that is blessed with two major rivers 
running along our borders and cutting through our States, and 
we have to have bridges over them. Your comments about bridges 
are very well taken, and we have needs for them. So I will be 
doing what I can to support Senator Warner and Senator Chafee 
in moving the bill forward, and I look forward to working with 
you as we consider the problems that we have in assuring 
adequate transportation for the convenience of our citizens, 
for the economic growth and development of our State, but most 
of all for the safety of our traveling public.
    So we welcome you and look forward to supporting you, and I 
hope we can get you confirmed and the bill passed, all in one 
``swell foop.''
    General Wykle. That would be great, sir.
    I will say to you, I am very familiar with the State of 
Missouri, but I would welcome the opportunity to come back.
    Senator Bond. We will give you the best barbecue. We'll 
take you all over and show you our wonderful needs and our 
gracious hospitality, I hope.
    General Wykle. Thank you very much, sir.
    Senator Chafee. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    General I guess I'm particularly pleased that you have 
volunteered to take on this responsibility, because I have 
watched your predecessors over the years struggle with the 
difficulty of trying to balance the need for the Federal 
Highway Administration to oversee projects, and at the same 
time to give maximum flexibility to the States to do the 
projects on the schedules and within reasonable periods of 
time.
    Senator Chafee and I have some familiarity with naval 
construction, where it takes--from the design board until the 
time that a modern warship ploughs the waves in an operational 
status--6, 7, 8, 9, 10 years. I find it perplexing that much of 
the highway system, likewise, takes these very substantial 
periods of time. One is led to believe that perhaps the 
exorbitant amount of time that is required is a consequence of 
this dual management of Federal and State. ISTEA I moved the 
States into positions of greater authority on a variety of 
issues; ISTEA II, which hopefully will be passed, likewise 
takes that momentum and moves it further down the field to give 
more authority to the States.
    But have you had an opportunity to look into what I believe 
are egregious time periods consumed by the need to work Federal 
and State supervision over the planning and construction of a 
typical road in America, and how we can shorten that time?
    General Wykle. Sir, I have not had time to look at the 
specific steps involved in doing that, but I am very sensitive 
to your issue. As you commented for the military aspects, and 
your background as well as mine, you know that we like to give 
commanders as much flexibility as possible at the lower levels, 
so I am very sensitive to your interest in giving the States 
more flexibility.
    I will say to you that we have a study ongoing right now 
within the Department to look at the hierarchical structure 
within the Federal Highway Administration, because we have 
Division offices in the States, we have regions, and then we 
come to the Federal level. One of the ideas is asking ourselves 
internally whether or not the regions are still required and 
what functions they perform that can be delegated or empowered 
down to the States. So if confirmed, sir, I certainly will take 
that on and look at it. I am very sensitive to what you are 
commenting on and aware of the interest in this area.
    Senator Warner. Well, General, as an observer here on the 
scene for some several years, the graveyards are filled with 
public servants buried under studies. Mountains of studies are 
stored throughout our Federal system. Don't let a study deter 
you from using your own initiative and drawing on your own 
background. I cannot State with precision the statistic, but 
there was a period during World War II when we built more 
bridges in 9 months, particularly in Europe, than this country 
had constructed in almost its entire existence, albeit those 
were somewhat temporary in their construction. But it at least 
showed the ability of people, given the authority, to at least 
cross a waterway. So think of that as you go along, and listen 
to the echo in your ear of George Patton as he called upon his 
engineers to put those bridges across the waterways of Europe 
so that his motorized vehicles could carry on with the war.
    General Wykle. Thank you, sir. I appreciate that advice and 
I will do that.
    Senator Warner. I've got a picture, if you really want it, 
of Patton standing on the Rhine River, looking at his 
engineers, and I think he's complimenting them on getting 
across. And he's doing something else that the picture depicts 
that is rather interesting.
    Senator Chafee. Are there further questions or statements?
    [No response.]
    Senator Chafee. General, when you visited with me yesterday 
we discussed innovative financing. There is some innovative 
financing in ISTEA II, but that's not the end of it. There are 
possibly other ways. This falls under the innovative part that 
we are all urging upon you, not only in the design and the 
tolls and the rapid movement through the toll plazas, as you 
previously pointed out, but there is a whole series of other 
things that might be done, and included in that is the 
financing. So we would urge you to keep your eyes open and be 
alert for ways we can improve that, and leverage money and get 
on with the job.
    So we thank you very much for coming up.
    This committee will be meeting tomorrow at 9:30 for a 
business meeting, in the course of which we will consider this 
nomination and some other things, so I would urge a good 
attendance.
    That having been said, the meeting will be adjourned.
    General Wykle. Thank you very much, sir.
    [Whereupon, at 9:42 a.m., the committee recessed, to 
reconvene at 9:30 a.m. on Wednesday, October 29, 1997.]
    Prepared Statement of Kenneth R. Wykle, Administrator Designate
    Good morning, Chairman Chafee, Senator Baucus, Subcommittee 
Chairman Warner, and distinguished Members of the Committee. It is a 
pleasure to appear before you today, as you consider my nomination to 
be Administrator of the Federal Highway Administration at the U.S. 
Department of Transportation. I especially appreciate the efforts of 
the Committee to expedite my nomination during one of this Committee's 
busiest legislative periods. I am accompanied today by my best friend 
and partner of 30 plus years and would like at this time to introduce 
my wife--Mary Wykle, Ph.D.
    I am honored to have been recommended by Secretary of 
Transportation Rodney Slater and nominated for this position by 
President Clinton. Both the President and Secretary Slater recognize 
the crucial role of highways in our transportation system and their 
impact on our Nation's economy, national security, and quality of life. 
If confirmed, it would be a privilege to work with them and this 
Committee to ensure that we build a strong national intermodal 
transportation system for the 21st century.
    As the former Deputy Commander-in-Chief of the U.S. Transportation 
Command, or TRANSCOM, I know first hand how much we rely on our 
Nation's highways and the entire transportation system to move people 
and goods in this country. Highways are the backbone of our current 
intermodal transportation system. At TRANSCOM, we were responsible for 
providing and arranging transport services worldwide during peace and 
war. In cooperation with our commercial transportation industry 
partners we moved thousands of personnel and millions of tons of cargo 
in support of humanitarian operations and during times of national 
crisis. We experienced first-hand the need both in peace and in time of 
international turmoil for safe, reliable, efficient transportation. 
These events demonstrated the requirement for a connected/seamless 
national and international intermodal transportation system. I would 
bring this recent experience, plus more than 16 years of experience 
living in Europe and Asia and working with or using their commercial 
Transportation Systems, to the position of Federal Highway 
Administrator.
    I would ask that for a moment you think of our Nation's 
transportation system like the human circulatory system. An efficiently 
functioning intermodal transportation system is essential to our 
Nation's economic welfare and survival just as a fully functioning 
circulatory system is essential to our body. The Nation's intermodal 
transportation system must enable people and goods to move efficiently 
throughout the country and the world--or the economy and our quality of 
life will lose vitality and productivity, just as the human body will 
fail when its circulatory system becomes clogged. As we properly 
maintain and strengthen the body we must do the same for this Nation's 
transportation infrastructure. I personally find the search for 
solutions to our nation's transportation challenges rewarding. If 
confirmed I look forward to forming a strong alliance with this 
Committee, dedicated industry, government, and academic partners and 
representatives from environmental and other affected transportation 
interests to create a truly national intermodal transportation system 
that is interoperable with global transportation systems.
    A few weeks ago, Secretary Slater transmitted to you the Department 
of Transportation's Strategic Plan for 1997-2002. The five Strategic 
Goals laid out in the Plan provide the right foundation for improving 
the performance of the Nation's transportation system, and if 
confirmed, I would be guided by those goals as the Federal Highway 
Administrator. I agree with the Secretary that the Department's 
strategic plan provides the direction for achieving transportation 
excellence in the 21st Century. The goals are basic, but reflect and 
balance the complexities of the Nation's transportation system.
    <bullet> Safety--Collision Avoidance systems, highway and bridge 
maintenance, intelligent cruise control, and efforts to improve safety 
across the board.
    <bullet> Mobility--Interstate maintenance, connectors, bridges, 
travel and weather information.
    <bullet> Productivity--Economic growth and trade, intermodalism, 
technology, standards, freeway management and information systems.
    <bullet> Human and Natural Environment--Alternative fuels, 
Congestion Mitigation and Air Quality Improvement Program, protection 
of wetlands and natural habitat
    <bullet> National Security--National Highway System, connectors to 
intermodal facilities, bridges, access to military installations.
    I believe these goals are fully reflected in the Intermodal Surface 
Transportation Efficiency Act (ISTEA) reauthorization legislation 
advanced by this Committee and the Administration. Indeed, the bill 
reported out by this Committee, ISTEA II, and the Administration's 
proposal have much in common. I am aware of the difficult issues yet to 
be resolved, and I pledge to work with you in any way possible to 
obtain a multi-year reauthorization bill based on the principles of 
ISTEA.
    The National Highway System, which was designated in legislation 
passed 2 years ago, will serve as the keystone of a transportation 
system that will serve this Nation well into the 21st Century. The 
total system will continue to foster productivity and mobility and it 
must be enhanced as we leverage technology, information systems and our 
great human resources. We cannot continue to build highways as we have 
for the last forty years--we must turn our focus to an efficient 
national intermodal system that is interoperable with global 
transportation systems, using technology and information to 
significantly increase the capacity and productivity of our current 
infrastructure.
    In closing, I am honored to appear before you today and, if 
confirmed, I pledge to work with you and all of our partners to achieve 
transportation excellence in the 21st century. I thank this Committee 
for the courtesy and consideration extended to me. I look forward to 
your questions.
    Thank you.
                                 ______
                                 
             Responses to Questions from Senator Lautenberg

    Question 1a. Intelligent Transportation Systems. I am a long time 
supporter of researching, developing and implementing Intelligent 
Transportation Systems (ITS) throughout the country. These technologies 
provide cost-effective solutions toward achieving national 
transportation goals of mobility, efficiency, productivity, safety and 
environmental protection. A recent study found that ITS infrastructure 
will generate an overall benefit-cost ratio of 5.7 to 1 for nearly 300 
metropolitan areas, and an even stronger return for the top 75 most 
congested cities. While the benefits of ITS are well documented, I have 
found that people support ITS technologies only after they personally 
witness the technologies in action.
    What is your position on ITS? Is the Federal program important, or 
is it just a corporate subsidy?
    Answer. I strongly support ITS. The Federal program in close 
cooperation with State and local governments and the private sector, is 
important. It offers the greatest potential to improve the productivity 
of our Nation's highways.
    ITS can also provide the infrastructure necessary to enable the 
intermodal management of the transportation systems we have today. We 
might draw a useful analogy to the global economy. We can desire global 
commerce but without the telecommunication system and the global 
aviation system that we have in place today it would be difficult to 
achieve on any meaningful scale. Likewise with intermodal management. 
ITS provides the enabling infrastructure to make real-time, intermodal 
management of our systems possible. From the perspective of an FHWA 
Administrator, I believe that ITS offers the opportunity of reducing 
the cost of providing highway capacity.
    The in-vehicle ITS technologies offer the opportunity of 
streamlining numerous government operations, and increasing the 
efficiency of transit truck, and emergency management fleet operations. 
Most important, however, several of them offer the potential of 
shifting the paradigm on safety from one of crash protection to crash 
prevention--saving not only lives but the millions of dollars spent 
every year in medical costs, property damage and productivity loss due 
to disability. These technologies will be especially critical to 
enhancing the driving performance of older Americans, and disabled 
drivers and thereby extend their mobility.
    I believe the program is critically important to building the 
transportation services of the 21st century that will keep us 
competitive. Systems management, mobility and safety are the business 
of government--not corporate welfare.

    Question 1b. Will you follow in the footsteps of your predecessors 
in making the Federal ITS program a priority?
    Answer. I will make the Federal ITS program a top priority. My 
opening statement reflected that view, and my response to Senator 
Baucus at my confirmation hearing reflected my strong views on the 
value of ITS.

    Question 1c. What are your views on the role of the Federal 
Government in encouraging research development and integration of ITS 
technologies?
    Answer. The Federal Government, in my opinion, should focus on the 
requirements to improve the safety, mobility, and productivity of our 
highways. The Government should then identify potential solutions to 
these requirements. Existing technology should be used to the maximum 
extent possible to solve transportation requirements, i.e., leverage 
existing technology. FHWA research and development should focus first 
on applying current technology.
    Integration of ITS technologies is of particular concern to me. We 
have about a 5-year window, as ITS technologies are being deployed, to 
insure that the end result is an integrated, interoperable national 
system--much like our Interstate. If we do not intervene, and intervene 
quickly the likely result will be the equivalent of an Interstate with 
mismatched connections, and different signing standards, geometry, and 
widths--in essence a patchwork. We will have lost for 10 to 15 years 
the real intermodal promise that ITS offers.

    Question 2a. Truck Size and Weight. The Department has been engaged 
in a comprehensive truck size and weight study for over the: past year. 
I understand that some chapters are complete, but the final study is 
not complete When do you anticipate that the report will be transmitted 
to Congress?
    Answer. I understand that the Department released a draft volume 
outlining issues and background for the comprehensive truck size and 
weight study in June 1997. They anticipated that the final 
Comprehensive Truck Size and Weight (CTS&W) study will be submitted to 
Congress in November 1998. I would push to reach those deadlines.

    Question 2b. Would you support increases in truck size and weight 
nationwide? Would you support a freeze on truck size and weight 
nationwide?
    Answer. I concur with the Secretary of Transportation's assessment 
that any legislative changes should be deferred until the completion of 
the Department's CTS&W study.

    Question 2c. Would you support special exemptions for increased 
truck sizes and/or weight advocated by certain states?
    Answer. As I stated previously, I would not favor any legislative 
changes in truck size and weight laws until the completion of the 
Department's CTS&W study.

    Question 2d. As you know, the Senate Commerce Committee recently 
transmitted its ISTEA title. The title provides troublesome exemptions 
for hazardous materials and hours of service rules. What is your 
position on these two provisions?
    Answer. I would have concerns about any blanket legislative 
exemptions from the motor carrier safety regulations. Legislative 
exemptions, like those proposed in the Intermodal Transportation Safety 
Act (ITSA) of 1997, would provide specific industries relief from 
important safety controls without an evaluation of the possible safety 
consequences. Further, blanket exemptions undermine industry 
willingness to comply with the motor carrier safety regulations and 
create loopholes that can be exploited to avoid their application.

    Question 2e. Will you consider reviewing the existing cost 
allocation structure to accommodate the increased wear and tear caused 
by heavier trucks?
    Answer. I will review the cost allocation structure and FHWA's 
recently released report on the subject.

    Question 3a. Speed Limits. A recent study by the Insurance 
Institute for Highway Safety found that in 12 states that raised their 
highway speed limits in 1996, the number of deaths from automobile 
accidents increased by a total of 500 in the last 9 months of the year, 
compared with a similar period in 1995. It found that when speed limits 
in the 12 states were raised on the Interstate system, the death rate 
increased by an average of about 12 percent. These are very troubling 
statistics. As Administrator of the Federal Highway Administration, you 
have a special role in ensuring the safety of our highways.
    If statistics continue to show that increased speed on our highways 
leads to increased deaths, what actions will you take to ensure that 
the killing stops?
    Answer. I believe that the Federal Highway Administration (FHWA) 
should continue to use the lessons learned on the Interstates regarding 
design and operations and provide this information to States and local 
governments.
    I understand the FHWA and the National Highway Traffic Safety 
Administration (NHTSA) are just completing work on a report to the 
Congress on the impacts of the States' actions to raise speed limits 
above the 55/65 MPH. I am told that, based on a historical trends 
analysis, the report shows results for the Interstates that are similar 
to the results of the Insurance Institute's study FHWA and NHTSA are 
concerned about the trend analysis results. I also understand that only 
a year of data and, in some cases less than a year's amount of data, 
with the increased speed limits were available for the analysis.
    I believe that FHWA and NHTSA should continue to study the impact 
of increased speed limits at the national and State levels. In the 
event statistics continue to show increased fatalities with the higher 
speed limits, FHWA and NHTSA should work very closely with States to 
evaluate both the higher limits and the types of roadways where the 
limits were increased.
    Many States are also analyzing their data to determine the effects 
of the increased speed limits. Local governments are also developing 
the capabilities to analyze speed data. Both FHWA and NHTSA should 
continue to work with the States and local governments on this 
important safety issue and focus on other key program areas of traffic 
safety, e.g. increasing restraint use, enforcing traffic laws, 
informing and educating the public, and implementing roadway and 
traffic safety improvements.

    Question 4. Do you support my .08 Bill--the Safe and Sober Streets 
Act of 1997--and why?
    Answer. I support the bill and the .08 BAC as the per se standard 
for driving while intoxicated for individuals aged 21 and above because 
this has the potential to save the lives of many citizens each year. I 
understand that virtually all drivers are substantially impaired at .08 
with regard to critical driving tasks--braking, steering, lane changing 
and judgment.
    Many industrialized nations have BACs at .08: Canada, Great 
Britain, Austria and Switzerland. France and The Netherlands have a .05 
BAC.
    Recent studies of five states that lowered their BAC to .08 
indicate a significant decrease in alcohol-related fatalities.
                                 ______
                                 
               Responses to Questions from Senator Chafee
    Question 1. The role of the Federal Highway Administration has 
changed over the last 10 years from an agency with responsibility over 
highways only to an agency that oversees a national transportation 
network, How do you see the role of the Federal Highway Administration 
continuing to evolve over the next 10 years?
    Answer. I see the FHWA role moving to a focus on a national 
intermodal transportation system that is among the safest in the world. 
FHWA must provide the vision and leadership to develop and implement an 
efficient, effective, environmentally sensitive, technology-enhanced, 
information-dominant, intermodal transportation system that is 
interoperable with global transportation networks.

    Question 2. One of the worst problems with our transportation 
system is traffic congestion. In major metropolitan areas of the United 
States, traffic delays amount to an estimated 43 billion dollars 
annually in lost productivity. Washington, DC., has the second longest 
average commute to work in the Nation.
    If you are confirmed as FHWA Administrator, what program or 
initiatives will you emphasize to help reduce the devastating impact of 
congestion on the nation's roads and bridges?
    Answer. I would emphasize increasing the capacity of current 
infrastructure by leveraging technology and information--automated 
message signs; advance traveler information; global positioning systems 
(GPS) for tracking and locating safety and police vehicles for rapid 
response; better crash avoidance measures; better accident management 
to clear highways more quickly; traffic operation centers with command 
and control capabilities; and providing adequate levels of ending and 
flexibility in the use of funds for new capacity, including HOV lanes 
and transit.

    Question 3. One of the major changes made by ISTEA is the 
transferability between highway and transit programs. In the ISTEA II 
bill reported by the Committee, we take this transferability a step 
further by allowing highway funds to be used for Amtrak and high-speed 
passenger rail. What is your view of the ability to transfer funds from 
highway programs for other modes of transportation such as passenger 
rail and transit, and if confirmed, what kind of message do you think 
the Federal highway Administration should send to States and localities 
on this issue?
    Answer. I support the concept of transferability. Both ISTEA II and 
the Administration bill provide such assistance to AMTRAK and rail 
passenger programs. The increased flexibility should help contribute 
directly to the improvement of highway travel by reducing congestion, 
improving air quality, and enhancing the quality of life for our 
citizens.
                                 ______
                                 
               Responses to Questions from Senator Boxer
    Question 1. General, with your extensive military background, I 
assume that you have some experience in the application of advanced 
technologies in defense. As you may know, I have worked throughout this 
legislative session to promote the use of innovative defense 
technologies to meet America's civilian needs. With enactment of the 
fiscal year 1998 Transportation Appropriations Bill, the Department of 
Transportation has the resources and mandate to deploy these 
technologies for this purpose.
    The development of advanced composite materials is one of the 
leading technological advances arising from the U.S. defense sector in 
recent years. Originally designed as an integral element of defense 
stealth technologies, these materials provide highway bridges, columns 
and overpasses with remarkable strength and durability. Of special 
importance to the State of California, applying these technologies to 
highway bridges greatly enhances the seismic integrity of 
transportation infrastructure. They also enable construction of lighter 
and more durable bridges and bridge components, improve the safety and 
efficiency of construction, and lower live cycle costs.
    Are you familiar with the use of advanced composites for bridge 
construction, and do you see a strong role for applying advanced 
composite material technology to our nation's transportation? 
Specifically, the conference report to the fiscal year 1998 
transportation appropriations bill encourages the FHWA to work with an 
academic and industry-led national consortium to demonstrate the 
applications of an all-composite bridge for civil engineering purposes. 
Would you support that work?
    Answer. I am not personally familiar with the use of advance 
composites for bridge construction. I do support leveraging technology 
developed for other uses in transportation applications. I will work 
with the appropriate academic, industry and State DOT partners to 
explore the benefits of using advance composites in bridge 
construction. I also believe we should continue to advance state-of-
the-art materials (including composites and high performance steels and 
concrete) to ensure the continual reduction in the life cycle costs of 
highways.

    Question 2. You have extensive background in the intermodal aspects 
of moving defense personnel and supplies. What do you see as the major 
obstacle to improving the access of our seaports and airports to our 
national transportation system? In addition, what role do you see 
Intelligent Transportation Systems (ITS) playing in improving goods 
movement?
    Answer. I see several obstacles to improving access to seaports and 
airports:
    <bullet> The problems of environmentally appropriate and safe 
access through urban areas.
    <bullet> Inadequate connectors from our NHS to the ocean terminals 
and airports for both highway and rail.
    <bullet> Problems of grade-level rail crossings at many ocean 
terminals, which disrupts traffic and contributes to congestion, and 
creates safety concerns.
    <bullet> Lack of efficient material handling equipment to expedite 
intermodal transfers.
    ITS has great potential for expediting truck and rail movements to 
seaports and airports. ITS integrated with information systems can 
increase port through-put by providing better on-terminal location 
information, better port planning information, and faster, more 
accurate loading of trains, trucks, or ships. ITS has the potential to 
provide significant productivity enhancements across the entire 
transportation spectrum.
    Both Global Positioning Systems (GPS) and direct short range 
communications (DSRC) devices can track the movement and contents of 
containers, chassis and other equipment. Using DSRC or advanced imaging 
systems for gate access can help reduce back-up queues at port 
entrances. Some of the same technologies that were demonstrated with 
the automated highway system in San Diego can be of immediate use in 
automating some of the container movements on ports--relieving both 
congestion and time-in-port.
    We need to match the right information to the right movement, at 
the right time; this is the key to reducing congestion and time invoked 
in a variety of goods movements. Much of the customs and bill of lading 
information about contents can be read and processed well in advance of 
the actual docking or border crossing with the use of information 
networks, high speed communications, DSRC, and importantly, common 
communications protocols. This could substantially reduce queues at 
borders, and backlogs in our marine ports arid airports.
    Congestion is an equally important capacity constraint on the land 
side of airports. There, ITS can provide real-time management to 
relieve congestion as well as control of ground access vehicles and 
consumer information on parking availability, and flight arrival and 
departure.

    Question 3. The Senate Environment and Public Works Committee has 
re-authorized the Automated Highway System (AHS) in ISTEA II. Do you 
see the AHS as providing a future role in providing congestion relief 
in our urban areas? And do you see value in obtaining so-called spin-
off technologies from research and development of the AHS?
    Answer. AHS has the potential of providing congestion relief long 
term, but realistically will not have much of an impact near term. The 
greatest benefits from AHS are spin off technologies, e.g. crash 
avoidance systems, intelligent cruise control. AHS work should continue 
with the primary short term focus being spin off technologies.

[GRAPHIC] [TIFF OMITTED] TH269.019

[GRAPHIC] [TIFF OMITTED] TH269.020

[GRAPHIC] [TIFF OMITTED] TH269.021

[GRAPHIC] [TIFF OMITTED] TH269.022

[GRAPHIC] [TIFF OMITTED] TH269.023

[GRAPHIC] [TIFF OMITTED] TH269.024

[GRAPHIC] [TIFF OMITTED] TH269.025



                                <all>
</pre></body></html>
